                                   SOCIAL SECURITY
MEMORANDUM

Date:   February 15, 2011                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Month of Election Policy for Retirement Benefits
        (A-08-10-20183)


        The attached final report presents the results of our review. Our objective was to
        determine whether the Social Security Administration’s revised policy banned
        employees from explaining certain month of election information to retirement claimants.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 THE SOCIAL SECURITY ADMINISTRATION’S
       MONTH OF ELECTION POLICY
       FOR RETIREMENT BENEFITS


      February 2011   A-08-10-20183




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   February 15, 2011                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Month of Election Policy for Retirement Benefits
        (A-08-10-20183)


        OBJECTIVE

        Our objective was to determine whether the Social Security Administration’s (SSA)
        revised policy banned employees from explaining certain month of election (MOE)
        information to retirement claimants.

        BACKGROUND
        Social Security benefits are part of almost every American’s retirement plan. Deciding
        when to start receiving Social Security retirement benefits is an important and personal
        decision, which will affect the amount of benefits claimants1 receive for the remainder of
        their lives. In making this determination, applicants may consider a number of factors,
        such as their current or anticipated financial needs and obligations, health and family
        longevity, plans to work after retirement and/or the availability of other retirement
        income sources, and the amount of the Social Security benefit. Monthly benefit
        amounts can differ substantially based on one’s retirement age. That is, claimants can
        elect to retire before their full-retirement age and receive monthly benefit payments that
        are lower than they would receive if they retire at full-retirement age or later.

        SSA offers multiple tools and approaches to assist claimants in making an informed
        decision on when to begin receiving their retirement benefits. For example, SSA’s
        Website provides retirement planning information that includes a benefit calculator, and
        the Agency provides field offices with its publication, When to Start Receiving
        Retirement Benefits,2 which is shared with individuals who request retirement
        information. In addition, to ensure the public understands Social Security benefits and
        the importance of supplementing these benefits with retirement savings, SSA (1) mails
        1
         We use the term “claimants” in this report to refer to claimants filing for initial retirement benefits. We do
        not differentiate between claimants filing under their own or another’s Social Security number.
        2
            SSA, Publication No. 05-10147, July 2008.
Page 2 - The Commissioner


its annual Social Security Statement to current and former workers; (2) promotes the
Retirement Estimator on its Website; and (3) is researching and developing other
approaches to educate the public further. SSA also includes a publication titled
“Thinking of Retiring” in its Social Security Statement mailings to those age 55 and
older. It provides a variety of information, including an explanation about the monetary
effects of taking benefits early, at full-retirement age, and after full-retirement age.

Revised MOE Policy

SSA policy outlines information its employees may provide to individuals applying for
retirement benefits. SSA revised its MOE policy in November 2008. Specifically, it
amended the instructions regarding what information claims technicians should provide
claimants.3 The revised policy provides the following directions to claims technicians for
explaining MOE options to claimants.

         The interviewing technician should not focus on breakeven points, which is when
         the total benefits received during a lifetime would be equal if comparing two
         different MOE. The use of breakeven points is no longer applicable because of
         changes in life expectancy. Also, this approach does not consider many
         personal factors that the claimant may need to evaluate when making benefit
         decisions. The preferred explanation of when to elect benefits should entail the
         monthly benefit amounts (MBA)s for different start months and other information
         related to the claimant’s filing situation. If breakeven points are requested, the
         technician should calculate them, answer the questions, and emphasize the
         many significant factors that should be considered when making a MOE decision.
         (Emphasis added.)

The policy still requires that technicians screen claimants during the retirement
application process to determine their filing situation and provide Social Security
program information based on the following.4

     Benefits for which a claimant may be eligible.
     Applicability of information to a claimant’s situation.
     Information requested by a claimant.

New policy also instructs claims technicians to explain MOE options to claimants. This
includes technicians determining claimants’ monthly retirement benefit amounts at
(1) their earliest possible MOE, (2) full-retirement age (if later than their earliest possible
month), (3) age 70, and (4) any other months requested by claimants. According to
SSA policy, technicians are to provide any other information related to claimants’ filing
situation, such as explaining how earnings may change their monthly benefit amount.
However, the new policy states that the above information is not required if claimants
3
    SSA, Program Operations Manual System, GN 00204.039.
4
  New policy also removed the requirement that technicians document information discussed with
claimants.
Page 3 - The Commissioner


have already decided when to begin receiving benefits. New MOE policy further states
that contact with claimants may be required for clarification purposes when they file
retirement claims through SSA’s Internet claim (iClaim)5 system.

The revised policy makes clear that the role of the technician is to provide Social
Security program information but not to persuade the claimant about benefit decisions.

Union Concerns

In April 2010, the president of the American Federation of Government Employees
(AFGE), National Council of SSA Field Operations Locals, testified before the
Subcommittee on Social Security, House Committee on Ways and Means, that SSA
had banned its employees from explaining MOE choices with claimants. The AFGE
president urged members of Congress to direct SSA to eliminate this “gag order.” In
response to AFGE’s allegations, SSA reported to the Subcommittee, “We have not
banned our employees from explaining month of election (MOE) choices. While we do
not attempt to influence a claimant’s MOE choice, our technicians do provide
information about different MOE options.” SSA also responded, “Our employees inform
claimants of the amount of their unreduced benefits payable as well as the monthly
amounts they would receive if they chose to take benefits earlier or later. Online filers
are provided the same information and can get benefit estimates by using the link to the
Retirement Estimator included in the application path.”

Scope and Methodology

To accomplish our objective, we contacted an SSA official in the Office of the Associate
Commissioner for Income Security Programs regarding SSA’s change in MOE policy.
We also interviewed operations supervisors6 and claims technicians and observed
retirement application interviews at SSA field offices and Immediate Claims Taking
Units. In addition, we viewed SSA’s training video on Ready Retirement – MOE and
Financial Literacy for CRs [Claims Representative]. See Appendix B for additional
information regarding our scope and methodology.

RESULTS OF REVIEW
We do not believe SSA’s revised MOE policy bans employees from explaining pertinent
information—including MOE options—to retirement claimants. Rather, the new policy
states that claims technicians should only provide certain procedural calculations when
a claimant specifically requests that they do so. Many claims technicians with whom we
spoke agreed with limiting some of the information previously provided to retirement
applicants, as it was confusing and overwhelming. However, over half of the claims

5
 SSA’s iClaim is a tool that allows Internet users to file electronically for retirement, Medicare only,
spouse or disability benefits.
6
 We also interviewed other managers because not all offices had an operations supervisor position or an
operations supervisor was not available for interview.
Page 4 - The Commissioner


technicians who responded disagreed with the removal of break-even points. In fact,
some continued to provide this information to claimants without a specific request—
contrary to the new policy. Although we did not determine whether break-even points
were beneficial to claimants, we believe the Agency needs to explain more clearly its
rationale to claims technicians if it believes these are no longer relevant for retirement
applicants.

Many claims technicians disagreed with other aspects of the new policy as well. For
example, the policy states that if a claimant has already determined when to begin
receiving benefits, technicians are not required to provide applicants basic information
regarding monthly benefit amounts. However, a majority of claims technicians with
whom we spoke told us that they believe MOE options should be provided to claimants
who have already selected an MOE, and some continue to provide this information. In
addition, a few technicians were also concerned about new MOE policy clarity, which
we believe may have resulted in them not providing claimants with pertinent information
or appropriate follow-up. While we understand SSA’s position that claims technicians
should not serve as financial advisers, for many individuals, SSA claims technicians are
the only source of information applicants will have when making this important decision.
As such, we believe that SSA should clarify policy to explain that technicians may
provide MOE options even when a claimant has selected a specific MOE.

SSA’s MOE Policy

Based on our interviews, observations, and review of SSA’s MOE policy (old and new),
we do not believe SSA’s new policy bans claims technicians from providing information
to assist claimants in making decisions when applying for retirement. While the new
policy removed certain procedural calculations that claims technicians used before the
2008 change, policy still requires that technicians screen claimants during the
retirement application process to determine their filing situation and provide Social
Security program information. In addition, although new policy states that MOE
information is not required if claimants have already decided when to begin receiving
benefits, we do not believe this prohibits technicians from providing claimants with MOE
options, if they deem it necessary.

To gain a perspective of the changes in MOE policy, we interviewed claims technicians
and operations supervisors. We asked whether claimants needed the procedural
calculations to make an informed decision when selecting their MOE. Approximately
half stated that SSA should explain break-even points to claimants—contrary to
provisions in the new policy. As explained by several technicians, claimants usually do
not compute or realize the effect of different MOEs. As a result, some technicians
continue to voluntarily provide claimants break-even points. However, other technicians
with whom we spoke believed that break-even points were not essential to claimants’
decision-making process. In fact, one technician told us that current policy makes it
less confusing for claimants because the information provided to claimants before the
2008 revision was overwhelming.
Page 5 - The Commissioner


We also asked claims technicians and operations supervisors whether claimants who
have already selected an MOE should be provided information on different MOEs. The
majority of technicians with whom we spoke stated that they believe MOE options
should be provided to claimants who have already selected an MOE, and some
continue to provide this information. These technicians were concerned that claimants
do not always understand they have MOE options or recognize the implications of
choosing a particular one. As such, technicians believed these claimants did not always
make an informed choice. The majority of operations supervisors we interviewed
reiterated the position expressed by technicians. One supervisor stated that SSA was
providing a disservice to the public when it did not inform claimants of their MOE
options. The supervisor also stated that from their experience, most claimants are
“uneducated of their retirement options.” However, technicians and supervisors agreed
that the MOE decision belongs solely to claimants. Based on our limited observations
of claims technicians conducting retirement interviews, we concluded they provided
retirement claimants with information relevant to their filing situation.7

Interviewing retirement claimants was not part of this review. As such, for those
technicians who provided unsolicited MOE options to claimants, we cannot opine on
whether the information they received confused or aided them in making an informed
decision. While we recognize that SSA uses multiple approaches to educate the public
on retirement options, it cannot always be assumed the public obtained or read the
information. As such, we believe that SSA should revisit its new MOE policy
language—“This information is not required if the claimant has already decided when to
begin receiving benefits,”8—and consider revising it. For example, for those claimants
who have already decided on their MOE, policy could instruct technicians to ask
whether they are aware or would like an explanation of their MOE options. If it is clear
an applicant needs additional information and explanation, claims technicians should be
instructed to provide it.

SSA’s Explanation of the New MOE Policy

We asked a senior advisor in SSA’s Office of Income Security Programs about the
removal of the procedural calculations in MOE policy. He stated that the “8 and 20” and
“15 and 12” year rules9 and break-even points became antiquated once


7
  We monitored a limited number of technicians while they conducted in-person and telephone retirement
interviews. However, the claims technicians we observed were not always the same technician we
interviewed.
8
    SSA, Program Operations Manual System, GN 00204.039.C.
9
  Previously, technicians used these “year rules” to illustrate how electing an MOE before full-retirement
age affected claimants’ monthly and total benefits received over time. That is, technicians would explain
that choosing an MOE before full-retirement age would provide claimants with an initial gain, but the
monthly benefit amount received would be reduced for the remainder of their life. Few technicians
indicated the “year rules” calculations were pertinent to claimants’ MOE decision.
Page 6 - The Commissioner


(1) full-retirement age increased, (2) delayed retirement credits10 were fully phased in,
and (3) life expectancy increased. He also told us that claimants must consider all
streams of income when deciding on retirement. As such, break-even points apply only
when a claimant’s sole source of income is Social Security benefits.

We did not determine whether claims technicians’ providing claimants with break-even
point information was beneficial. However, among elderly Social Security beneficiaries,
20 percent of married couples and 41 percent of unmarried individuals rely on Social
Security for 90 percent or more of their income. Although technicians may be the sole
source of information for some claimants, we agree they should not attempt to influence
an applicant’s decision. As such, if SSA believes break-even points are no longer
relevant to this decision, we believe the Agency needs to provide further explanation to
its claims technicians regarding this determination—because it appears about half of
those we interviewed do not agree, and some continue to provide the calculations to
retirement claimants.

Technicians’ Concerns with MOE Policy Clarity

Some technicians with whom we spoke expressed a concern with clarity of the new
MOE policy. These technicians told us that they were not always sure about how much
information to provide claimants or when to contact claimants who filed electronically.
In fact, one claims technician told us that he or she was unaware there were instances
when they should not provide information to claimants. The following technician
statements illustrate how policy clarity can also affect information received by claimants.

    One technician stated he or she only provides information that retirement claimants
     request. The technician also told us that he or she had not been formally trained on
     the new MOE policy.

    One technician stated that he or she was unclear on when to contact iClaim
     claimants.11 That is, should technicians contact iClaim claimants when the MOE
     selected does not align with their documented decision for selecting that month? As
     a result, the technician did not follow-up with iClaim claimants when their MOE
     selection was not “particularly bad.”

Based on some technicians’ uncertainty about instruction provided in the new MOE
policy, we believe that claimants who filed for retirement benefits may not have always
received information or been contacted to clarify their iClaim MOE choice. Because
information relevant to claimants’ filing situations is essential to their retirement
decision, we believe SSA should consider clarifying its MOE policy and providing a
refresher course to employees, where needed. We realize that SSA cannot ensure

10
  By delaying retirement until after full-retirement age, claimants will receive a higher monthly benefit
amount due to the accumulation of delayed retirement credits up to age 70.
11
  Some technicians’ comments regarding iClaim were unrelated to our audit scope. We provided their
comments to the audit team currently reviewing SSA’s iClaim process.
Page 7 - The Commissioner


100-percent compliance from its employees. Nonetheless, it is the Agency’s
responsibility to make certain that it provides clear and understandable instructions for,
and adequately trains claims technicians on, its new MOE policy.

CONCLUSION AND RECOMMENDATIONS
Social Security benefits are a critical resource for most Americans. As such, claimants
need to make an informed decision about when to start receiving benefits. Although
SSA uses multiple tools and approaches to educate Americans on retirement, we
realize that it is a challenge to reach all Americans and some may not be fully informed
of their retirement options when applying for benefits. However, as the Agency that
delivers and manages Social Security, it is SSA’s responsibility to ensure that claimants
who file for retirement benefits are receiving pertinent information relative to their filing
situation.

Accordingly, we recommend that SSA:

1. Include a statement in MOE policy better explaining why the Agency believes
   break-even points are no longer relevant to claimants’ retirement decision.

2. Revise MOE policy language to clarify technicians’ responsibility when claimants
   preselect their MOE. For example, for those claimants who have already decided on
   their MOE, policy should instruct technicians to ask whether they are aware or would
   like an explanation of their MOE options.

3. Provide training to claims technicians to further explain MOE policy changes.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. SSA also provided general and technical
comments that we considered and incorporated, where appropriate. The Agency’s
comments are included in Appendix C.




                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
AFGE     American Federation of Government Employees
CR       Claims Representative
iClaim   Internet Claim
MBA      Monthly Benefit Amount
MOE      Month of Election
OIG      Office of the Inspector General
SSA      Social Security Administration
                                                                               Appendix B

Scope and Methodology
To accomplish our objective, we:

   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures pertaining to month of election (MOE).

   Visited SSA’s field offices and Immediate Claims Taking Units1 that were nearest to
    our audit offices nationwide. These offices are listed in Table B-1.

                        Table B-1: SSA Offices Visited by Region

               Region        Office Location                  Type of Office
          1        I      Boston, MA                  Field Office
          2       II      New York, NY                Field Office
          3               Alexandria, VA              Field Office
          4       III     Owings Mills, MD            Field Office
          5               Philadelphia, PA            Field Office
          6               Atlanta, GA                 Field Office
          7       IV      Birmingham, AL              Field Office
          8               Birmingham, AL              Immediate Claims Taking Unit
          9               Chicago, IL                 Field Office
                  V
         10               Chicago, IL                 Immediate Claims Taking Unit
         11       VI      Dallas, TX                  Field Office
         12               Kansas City, MO             Field Office
                 VII
         13               Kansas City, MO             Immediate Claims Taking Unit
         14               Richmond, CA                Field Office
                  IX
         15               Richmond, CA                Immediate Claims Taking Unit




1
 We limited the number of Immediate Claims Taking Units we visited. We selected those that had a
greater number of claims technicians, but were also near our audit offices.


                                                B-1
   Interviewed two relatively new and two experienced claims technicians and one
    operations supervisor at each office visited. We defined an experienced claims
    technician as having at least 5 years experience and a relatively new claims
    technician as having more than 1 year, but less than 2 years, of experience in
    processing retirement claims. If the SSA office we visited did not have claims
    technicians that met our definition of experienced or relatively new, then we
    interviewed any four that were available. We interviewed 60 claims technicians and
    15 operations supervisors2 nationwide.

   Observed 33 claims technicians conducting retirement application interviews. Of
    these, 23 worked in field offices and 10 in Immediate Claims Taking Units.

   Interviewed a senior advisor in the Office of the Associate Commissioner for Income
    Security Programs regarding SSA’s change in MOE policy.

   Reviewed the American Federation of Government Employees (AFGE), National
    Council of SSA Field Operations Locals, April 15, 2010 testimony before the
    Subcommittee on Social Security, House Committee on Ways and Means.

   Reviewed SSA’s response to Congressman Sam Johnson, Subcommittee on Social
    Security, House Committee on Ways and Means, regarding AFGE allegations.

   Viewed SSA’s training video on Ready Retirement – MOE and Financial Literacy for
    CRs [Claims Representatives].

Our scope and review of internal controls was limited to gaining an understanding of
MOE policies and procedures and did not include interviewing retirement claimants.
The SSA entities audited were the Offices of the Associate Commissioner for Income
Security Programs and Deputy Commissioner for Operations. We conducted our
review between June and September 2010 in Birmingham, Alabama, and selected field
offices and Immediate Claims Taking Units nationwide.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




2
 We also interviewed other managers because not all offices had an operations supervisor position or an
operations supervisor was not available for interview.


                                                  B-2
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      January 18, 2011                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Month of Election Policy for Retirement Benefits” (A-08-10-20183)--INFORMATION

           Thank you for the opportunity to review the draft report. Attached is our response to the report.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "THE SOCIAL SECURITY ADMINISTRATION’S MONTH OF ELECTION
(MOE) POLICY FOR RETIREMENT BENEFITS" (A-08-10-20183)

We offer the following comments.

RESPONSES TO RECOMMENDATIONS

Recommendation 1

Include a statement in MOE policy better explaining why the agency believes break-even points
are no longer relevant to claimants’ retirement decision.

Response

We agree. We will clarify our MOE policy on break-even points.

Recommendation 2

Revise MOE policy language to clarify technicians’ responsibility when claimants preselect their
MOE. For example, for those claimants who have already decided on their MOE, policy should
instruct technicians to ask whether they are aware or would like an explanation of their MOE
options.

Response

We agree. We will revise and clarify MOE guidance. However, we do not plan to adopt the
policy you suggest in your example – that is, “for those claimants who have already decided on
their MOE” we will not “instruct technicians to ask whether they are aware or would like an
explanation of their MOE options.”

Recommendation 3

Provide training to claims technicians to further explain MOE policy changes.

Response

We agree. We will provide additional training.




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Theresa Roberts, Audit Manager, Birmingham Office of Audit

Acknowledgments

In addition to those named above:

   Hollie Calhoun, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-10-20183.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
